~~

IlV THE
SUPREME COURT OF THE UNITED STATES

FRANKLIN C. EDWARDS, Petitioner,
-vsPEOPLE OF THE STATE OF ILLINOIS, Respondent.
On Petition For Writ Of Certiorari
To The Supreme Court Of Illinois
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner requests leave to proceed in forma pauperis. The Petitioner has
previously been granted leave to proceed in forma pauperis in the court below. Counsel
was appointed to represent petitioner in the court below pursuant to 725 ILLS
105/10(a).
Respectfully submitted,
ELLE
RY
Deputy Defender
Counsel of Record
EUN SUN NAM
Assistant Appellate Defender and Of Counsel
Office of the State Appellate Defender
Fifth Judicial District
909 Water Tower Circle
Mt. Vernon, IL 62864
(618) 244-3466
5thDistrict@osad.state.il. us
COUNSEL FOR PETITIONER

